No. __________

In The

Supreme Court of the United States
—————♦—————
JENNIFER SMITH,

Petitioner,

v.
FLORIDA AGRICULTURAL & MECHANICAL
UNIVERSITY BOARD OF TRUSTEES,

Respondent.

—————♦—————
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Eleventh Circuit
—————♦—————
PETITION FOR A WRIT OF CERTIORARI
—————♦—————
Jennifer M. Smith

Counsel of Record

Law Office of Jennifer Smith
13506 Summerport Village
Pkwy., Suite 108
Windermere, FL 34786
321-200-4946 Phone
407-442-3023 Fax
jensmithesq@aol.com

Stephen M. Smith
Stephen M. Smith
Associates, LLC
1425 N. Broad Street
Suite 201
New Orleans, LA 70119
504-947-1400 Phone
504-947-1100 Fax
stevesmithlaw@aol.com

Counsel for Petitioner

i
QUESTIONS PRESENTED
The questions presented are:
1. Whether, under federal equal pay laws, the
employer unlawfully discriminated against a female
employee by failing to apply its salary equity adjustment
formula to her, as three circuits have held, because the
outcome would result in a salary commensurate to the
highest paid male (classified as an "outlier") in the
employee's job category.
2. When a female employee receives a revised salary
based on unknown “other factors” after an unsuccessful
challenge to her prior salary as discriminatory under
federal equal pay laws and the employer does not apply
its salary adjustment formula to her as it did for her male
comparators, whether collateral estoppel bars her from
challenging her revised salary because the issue was not
actually litigated as held in New Hampshire v. Maine,
532 U.S. 742 (2001).
3. When an employee’s salary is not increased to the
minimal amount required under the employer’s salary
equity formula, whether the loss of the higher salary is an
“adverse employment action” under federal equal pay
laws, and as defined under Burlington Northern & Santa
Fe Railway Company v. White, 548 U.S. 53 (2006).

ii

LIST OF PARTIES
Pursuant to Rule 14.1(b), Petitioner states that the
parties include:
1. Jennifer Smith, Plaintiff and Petitioner;
2. Florida Agricultural and Mechanical University
Board of Trustees, Defendant and Respondent.
LIST OF PROCEEDINGS
•

Smith v. Florida Agricultural and Mechanical University
Board of Trustees, Northern District of Florida, Docket #:
4:14-cv-00540-RH-CAS. Judgment entered July 27, 2015.

•

Smith v. Florida Agricultural and Mechanical University
Board of Trustees, United States Court of Appeals for the
Eleventh Circuit, Docket # 15-14613, # 16-15582.
Judgment entered May 8, 2017.

•

Smith v. Florida Agricultural and Mechanical University
Board of Trustees, Northern District of Florida, Docket #:
4:18-cv-00409-RH-CAS. Judgment entered June 4, 2019.

•

Smith v. Florida Agricultural and Mechanical University
Board of Trustees, United States Court of Appeals for the
Eleventh Circuit, Docket # 19-12560. Judgment entered
October 8, 2020.

iii

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED …………………….……………i
LIST OF PARTIES …………………………..………………..ii
LIST OF PROCEEDINGS …………………………………...ii
TABLE OF AUTHORITIES …………………….……………v
OPINIONS BELOW………………………...……..................1
STATEMENT OF JURISDICTION……………….………...1
STATUTORY PROVISIONS INVOLVED….………………1
STATEMENT OF THE CASE………….…………………….3
A. Factual Background …………………………………..3
B. The District Court’s Erroneous
Dismissal of Professor Smith’s
Case……………..…………………………………. 10
C. The Eleventh Circuit’s Erroneous
Decision to Affirm the District
Court …………………………………...…………..11
REASONS FOR GRANTING PETITION………..….……14
I. The Decision Below Generates Issues
of First Impression, Creates a
Circuit Split and is Inconsistent
with Federal Law………………………..….…….14
II. The Decision Below Cannot Be
Reconciled with this Court’s
Precedent or Federal Law……………….….…...21
III.Failure to Review This Case Will Have
Far-Reaching Consequences and
the Decision Below Is
Fundamentally Unfair to Women… ……...……23

iv

CONCLUSION…………………………………..……………27
Appendix
United States Court of Appeals for the
Eleventh Circuit, Opinion,
October 8, 2020……………………………………….App. 1
United States District Court for the Northern
District of Florida, Order,
June 2, 2019 ………………………………..………App. 20
United States District Court for the Northern
District of Florida, Order,
June 19, 2019 ………………………………..……..App. 29
Florida Agricultural & Mechanical University
Salary Equity Study,
August 2015 ………………………………..……….App. 33
Initial Brief of Appellant, filed in
the United States Court of Appeals,
September 9, 2019 ………………………………...App. 48
Dean Jones’ Deposition, in part,
April 1, 2019 ………………………………………App. 113
Rationale for Salary Adjustments,
February 23, 2016 ………………………………..App. 120
Dean Green’s Deposition, in part,
April 1, 2019 ………………………………………App. 122

v

TABLE OF AUTHORITIES
Page
CASES:

Aldrich v. Randolph Cent. School Dist., 963 F.2d 520
(2d Cir. 1992) ……………………….…………....………21

Baltimore S.S. Co. v. Phillips, 274 U.S. 316 (1927) …....18
B & B Hardware, Inc. v. Hargis Indus., Inc., 575 U.S.
138 (2015) ….….………………………………….…..…...18

Bd. of Regents of Univ. of Nebraska v. Dawes,
522 F.2d 380 (8th Cir. 1975) ………………..…….passim

Bravo-Fernandez v. United States, 137 S. Ct. 352
(2016) ….………………………………………..………….18

Burlington Northern & Santa Fe Railway Company v.
White, 548 U.S. 53 (2006) …………………………passim
Comm’r of Internal Revenue v. Sunnen, 333 U.S. 591
(1948) ………………………………………………………19

County of Los Angeles v. Kling, 474 U.S. 936 (1986) …..25
County of Washington v. Gunther, 452 U.S. 161 (1981)..21
Cromwell v. County of Sac, 94 U.S. 351 (1876) …….…...18
Ende v. Bd. of Regents of Regency Universities, 757
F.2d 176 (7th Cir. 1985) …..………………….…15,16, 23

Jaffree v. Wallace, 837 F.2d 1461 (11th Cir. 1988) ….….24
Jepsen v. Fla. Bd. of Regents, 754 F.2d 924
(11th Cir. 1985) ……………………………………... 20

Nesbit v. Indep. Dist. of Riverside, 144 U.S. 610
(1892) ..………………………………………………....18

New Hampshire v. Maine, 532 U.S. 742 (2001)……passim

vi

Montana v. United States, 440 U.S. 147 (1979) …………18
Plumley v. Austin, 135 S. Ct. 828 (2015) …………………25
Schultz v. Wheaton Glass Co., 421 F.2d 259
(3d Cir. 1970) ...………………..………………………….20

Schwartz v. Fla. Bd. of Regents, 807 F.2d 901
(11th Cir. 1987) …….……..………………….………17, 23

Smith v. Virginia Commonwealth Univ., 84 F.3d 672
(4th Cir. 1996) …...……………………………....15, 16, 23

Taylor v. Sturgell, 553 U.S. 880 (2008) ………………...…18
Thomas v. Sawyer, 678 F.2d 257 (D.C. Cir. 1982) ….20, 21
United Steelworkers of America v. Weber, 443 U.S.
193 (1979) ..……………………………………………..…15

Whole Woman's Health v. Hellerstedt, 136 S. Ct. 2292
(2016) ……………………………………………..……..…24
STATUTORY PROVISIONS:
28 U.S.C. § 1254(1) ……………………………………………1
29 U.S.C. § 206(d)……………………………………….passim
29 U.S.C. § 215(a)(3)…………………………………... passim
42 U.S.C. § 2000e-2 …………………………………….passim
42 U.S.C. § 2000e-3(a) ……………………………...….passim
OTHER AUTHORITIES:
H.R. Rep. No. 116-18 (2019) ……………………….……….21
Martha J. Dragich, Will the Federal Courts

of Appeals Perish If They Publish?
Or Does the Declining Use of Opinions
to Explain and Justify Judicial Decisions
Pose a Greater Threat? 44 AM. U. L.

vii

REV. 757, 788 (1995)…………………………………25, 26
News Release, U.S. Department of Labor, U.S.
Department of Labor and Nova Southeastern
University Reach Agreement to Resolve
Compensation Disparities (July 10, 2020),
available at https://www.dol.gov/newsroom/
releases/ofccp/ofccp20200710 .......................................16

Restatement § 24, comment f ……………………………....24
Restatement (Second) of Judgments, § 27, p. 250
(1980) …………………………………………………..18

Restatement (Second) of Judgments, § 28(2)(b) …….…..24
COURT RULES:
Fed. R. Civ. P. 59 ………………………………..………….....3

1

OPINIONS BELOW
The opinion of the United States Court of Appeals
for the Eleventh Circuit was issued on October 8, 2020.
App. 1. The Eleventh Circuit affirmed the decision of the
United States District Court of the Northern District of
Florida issued on June 2, 2019 and June 19, 2019. App.
20, 29.
—————♦—————
STATEMENT OF JURISDICTION
The United States Court of Appeals for the
Eleventh Circuit issued its unpublished opinion affirming
the decision of the United States District Court of the
Northern District of Florida on October 8, 2020, App. 1.
On March 19, this court extended the time to file this
petition until March 7, 2021. The jurisdiction of this
Honorable Court is invoked under 28 U.S.C. § 1254(1).
—————♦—————
STATUTORY PROVISIONS INVOLVED
This case involves the provisions of the Equal Pay
Act of 1963 and Title VII of the Civil Rights Act of 1964 as
provided below:
Equal Pay Act, 29 U.S.C. § 206(d):
No employer having employees subject to any provisions
of this section shall discriminate, within any
establishment in which such employees are employed,
between employees on
the
basis
of
sex
by
paying wages to employees in such establishment at a
rate
less
than
the
rate
at
which
he
pays wages to employees of the opposite sex in such
establishment for equal work on jobs the performance of
which requires equal skill, effort, and responsibility, and
which are performed under similar working conditions,
except where such payment is made pursuant to (i) a
seniority system; (ii) a merit system; (iii) a system which

2

measures earnings by quantity or quality of production; or
(iv) a differential based on any other factor other than
sex: Provided, That an employer who is paying
a wage rate differential in violation of this subsection
shall not, in order to comply with the provisions of this
subsection, reduce the wage rate of any employee.
The EPA incorporates the anti-retaliation provision of the
Fair Labor Standards Act (FLSA), 29 U.S.C. § 215(a)(3):
To discharge or in any other manner discriminate against
any employee because such employee has filed any
complaint or instituted or caused to be instituted any
proceeding under or related to this chapter, or has
testified or is about to testify in any such proceeding, or
has served or is about to serve on an industry committee.
Title VII, 42 U.S.C. § 2000e-2:
It shall be an unlawful employment practice for
an employer—
(1) to fail or refuse to hire or to discharge any individual,
or otherwise to discriminate against any individual with
respect to his compensation, terms, conditions, or
privileges of employment, because of such individual’s
race, color, religion, sex, or national origin; or
(2) to limit, segregate, or classify his employees or
applicants for employment in any way which would
deprive or tend to deprive any individual of employment
opportunities or otherwise adversely affect his status as
an employee, because of such individual’s race,
color, religion, sex, or national origin.
Title VII, 42 U.S.C. § 2000e-3(a):
It shall be an unlawful employment practice for an
employer to discriminate against any of his employees or
applicants for employment, for an employment agency, or
joint
labor
management
committee
controlling
apprenticeship or other training or retraining, including
on-the-job training programs, to discriminate against any
individual, or for a labor organization to discriminate

3

against any member thereof or applicant for membership,
because he has opposed any practice made an unlawful
employment practice by this subchapter, or because he
has made a charge, testified, assisted, or participated in
any manner in an investigation, proceeding, or hearing
under this subchapter.
—————♦—————
STATEMENT OF THE CASE
The Eleventh Circuit Court of Appeals erroneously
affirmed dismissal of Petitioner Jennifer Smith’s second
equal pay case and made significant law surrounding
salary equity adjustments. This Court must grant the
writ of certiorari to resolve a split between the Circuit
Courts of Appeals, correct the Eleventh Circuit’s error
that is irreconcilable with this Court’s precedent, and
review significant interrelated, first impression issues
with salary equity adjustments, including whether the
Eleventh Circuit’s decision conflicts with principles under
the Equal Pay Act of 1963 and Title VII of the
Civil Rights Act of 1964, Burlington Northern & Santa Fe
Railway Company v. White, 548 U.S. 53 (2006) and New
Hampshire v. Maine, 532 U.S. 742 (2001).
A.

Factual Background

Petitioner Professor Jennifer Smith, a woman,
joined the Florida A&M University College of Law in 2004
as an associate professor. App. 2, 64. In July 2014,
Professor Smith filed a complaint against the University
for gender discrimination and retaliation (“first action” or
“Smith I”). App. 2, 66. She asserted that (1) as a female
tenured associate professor, male tenured associate
professors were paid more than she and other female
tenured associate professors; and (2) she was retaliated
against for complaining about gender-based unequal pay
by being denied promotion to full professor. App. 66.
These two issues were decided in favor of the University
on July 27, 2015. App. 2-3, 22, 66. On August 25, 2015
and pursuant to Fed. R. Civ. P. 59, Professor Smith filed a
motion for new trial. App. 66. The District Court denied
the motion. App. 66.

4

A New Administration & Salary Equity Adjustment
In the middle of Smith I and before going to trial in
2015, the University obtained a new provost, Marcella
David (“Provost David”), who requested a salary equity
study before, during, or after Smith I as a result of
Professor Smith’s complaint surrounding her concerns of
salary inequities. App. 66, 67. While Smith I was
proceeding and unbeknownst to Professor Smith, the
University completed or was completing the salary equity
study, which suggested that “gender, years tenured, and
rank played significant roles in determining salaries.”
App. 3, 34, 45, 61, 66, 67.
As a result of the salary equity study finalized in
the fall of 2015, Provost David told Deans Green and
Jones to review faculty salaries to see if they can “do
something for salary equity.” App. 67. Provost David
found the law faculty salaries to be illogical, and she
directed Deans Jones and Green to get “some sort of logic
to your salary structure” and deal with the perceived
salary inequity issue at the law school. App. 67.
To correct the illogical salaries, the University
created a committee with Deans Jones and Green as
principals of the effort, along with Dr. Gita Pitter (“Dr.
Pitter”) and her staff (Nathan Francis). App. 67. Even
though all the faculty salaries were not changed, all
faculty salaries were reviewed for a salary adjustment.
App. 4, 67. The salary adjustment was applied “to about
one third of the law school faculty.” App. 3, 4.
Dean Jones acknowledged that gender played a
significant role in faculty salaries before they were reset,
and he knew gender was a perceived problem. App. 68.
Dean Jones testified that he did not address gender in the
salary equity adjustment because he believed he would
have to look at qualitative factors, such as faculty
credentials; however, he “hoped that [the salary equity
adjustment] would address those who thought that
gender discrimination existed at the law school,” but he
was not seeking to correct a gender disparity. App. 4, 6,
68, 97. Dean Green, who worked alongside Dean Jones in
the salary equity adjustment, testified that Dean Jones

5

considered many factors, including resumes, curriculum
vitae and hiring packets. App. 68, 97. In addition, when
Dean Jones reset Professor Smith’s salary to $138,000, he
was aware of her “top” credentials, but claimed that was
not a factor in his recommending her for an increase to
$138,000. App. 68, 97. However, months before the salary
study was completed and immediately before Smith I was
litigated, Dean Jones compiled a list of faculty
publications, showing that Professor Smith had over three
times the number of publications than Associate Professor
Jeffrey Brown (“Professor Brown”), a male comparator in
Smith I. App. 68.
Notwithstanding the above, Deans Jones and
Green claimed that to reset the salaries, they followed the
instructions given to them by Dr. Pitter in the Office of
Academic Affairs/Provost’s Office. App. 68, 69. First, they
normalized all faculty salaries by bringing the twelvemonth and nine-month salaries to comparable numbers
on a nine-month scale; second, they put the salaries in
order by salary, based on rank, to see where associate
professors’ salaries exceeded full professors; and third,
they looked within each rank to determine where
adjustments needed to be made based on rank, time in
rank and years tenured. App. 4, 69. They implemented a
base of $120,000 for tenured associate professors and
$140,000 for tenured full professors, which eliminated
salary inversion and compression, which was their initial
stated goal. App. 4, 24, 69, 121. Implementing the base
salaries, alone, cured the salary inversion and
compression. App. 69. No faculty salaries were decreased.
App. 25, 27, 69. The other goal was to make associate
professors with tenure paid equally, which is why
Professor Smith was recommended for a salary of
$138,000 to nearly match Professor Brown, who is her
equal. App. 115, 119.
Based on this new salary structure, Professor
Smith, then a tenured associate professor, was slated to
receive an increase to $138,000, whereas every other
tenured associate professor was recommended for an
increase to $120,000. App. 6, 69. According to Deans
Jones and Green, Professor Smith was closer in tenure
time to Professor Brown, a tenured associate professor

6

who was earning $138,500, and senior to everyone else,
and it seemed right, said Dean Jones, to increase
Professor Smith’s salary to $138,000 “given the goal of
trying to make associate professors with tenure paid
equally.” App. 6, 24, 69, 115. Each of the other tenured
associate professors received the recommended increase to
$120,000. App. 6, 70.
Soon after Professor Smith filed a motion for new
trial of Smith I on August 24, 2015, the University’s
proposed salary of $138,000 for her was later reduced to
$125,000, even though the reduction was inconsistent
with the University’s formula as she was considered equal
to Professor Brown based on the proposal in rank, tenure,
and length of tenure. App. 6, 70, 71, 119.
The
“mysterious” additional $5,000 over the $120,000 was
based on unknown “other factors” no one could explain.
App. 6, 70, 116. Dean Jones testified that he did not
“know why she got an extra five.” App. 70, 116. Deans
Green and Jones claimed to have had numerous other
salary drafts, but only forwarded a few as concrete
recommendations because other drafts never became
documents. App. 18, 70.
As the reason for the decrease for Professor Smith
from $138,000 to $125,000, the University explained: (1)
that it did not have the money but conceded it could find
the money and (2) that it did not intend to match the
“outliers” – the highest paid faculty who are all men and
“classified” as “outliers.” App. 6, 7, 70, 71. According to
Dean Jones, Provost David believed that the outliers were
probably paid more than they needed to have been offered
in the first place. App. 71. Under the formula, the only
tenured associate professor whose salary should have
been comparable to an outlier was Professor Smith. App.
71.1 At the time that Professor Smith’s salary was
recommended to be increased to $138,000, Professor
Brown was not classified as an “outlier” – this became an
The University also did not increase any of the female tenured full
professors to the level of the “outlier” tenured full professors who
were all men. App. 7, 24. Based on length of time, Rhonda Reaves and
Patricia Broussard may have been raised to levels near the male
“outliers,” but they received something over $140,000 but not to levels
of the “outliers.” App. 7, 24.
1

7

afterthought of a defense in litigation. App. 71. Dean
Pernell testified that Professor Brown was hired based on
being a potential “emerging scholar.” App. 71. However,
Dean Pernell testified that Professor Brown “has not
emerged as a scholar... he had the potential of doing
that… but he has not achieved that level of scholarship…
he hasn’t published… consistent with the potential
suggested [in the hire letter].” App. 71. Dean Pernell also
consistently evaluated Professor Brown lower than
Professor Smith, who was consistently evaluated as a top
performer. App. 71.2
When Dean Jones was deposed, he was asked about
Professor Smith’s salary adjustment reduction from
$138,000 to $125,000.

Q: Now, what happened between August 28
[2015] and September 22 [2015] to make that
[reduction from $138,000 to $125,000]
happen?
Jones: I don’t recall specifically…
App. 71, 72.
On
August
26,
2015,
Professor
Smith’s
recommended salary was $138,000 in a chart described
with an attached email as “revised” and “final.” App. 72.
And according to Dean Jones’ August 21, 2015
memorandum, there was money in the budget to fund the
recommended salaries, which included Professor Smith’s
recommended salary of $138,000. App. 72. Provost David
ratified and adopted the salary proposals as presented
except for Professor Smith’s, and none of the tenured
female full professors’ salaries were increased to those of
the highest paid men “classified” as “outliers.” App. 7, 72.
Termination and Revelation
During Smith I, Provost David called Dean Jones
about being the interim dean. App. 72. Provost David
appointed Dean Jones as the interim dean, and he was
It is unfortunate that the federal equal pay laws require employees
to highlight the negatives of their colleagues to seek pay parity and
achieve gender equality.
2

8

under the belief that Provost David intended to appoint
him the permanent dean of the law school. App. 72.
However, after Smith I, Provost David did not appoint
Dean Jones as the permanent dean. App. 72. As a result,
Dean Jones was disappointed and indignant. App. 72, 73.
Dean Jones expressed his indignation in an email to the
faculty, about how Felecia Epps (“Dean Epps”), who was
selected as the permanent dean, was not qualified. App.
73. In response, Provost David called Dean Jones
“screaming and hollering and basically threaten[ed]” him
and then fired him as associate dean. App. 73. Dean
Jones testified: “the revenge that Professor David took out
on me was to have me fired from my position as Associate
Dean”… “Provost David caused me to be fired because of
this memo that I wrote.” App. 73. Dean Jones further
testified that he thought it was possible “the University
could retaliate for a woman [such as Professor Smith]
being aggressive and speaking up”…because “it happened
to me”… “I do not put it past the University to watch as
somebody is being retaliated against because they’ve done
it to me.” App. 73.
When he was not selected as the permanent dean,
Dean Jones told Professor Smith after the Smith I trial
that before the trial, the University was aware that
women were significantly underpaid as compared to men
at the College of Law by up to $30,000, and 2) the
Plaintiff was unfairly denied promotion to full professor
years earlier. App. 3, 73. Dean Jones told Professor
Smith about the salary equity study, confirming the
gender pay disparities, and in December 2015, he wrote a
memorandum to Provost David pointing out the obvious
and “inescapable” “Catch-22” in which the University was
now trapped for its inconsistencies in the University’s
assessment of Professor Smith’s promotion applications to
full professor by failing to follow its own RPT rules. App.
73, 74. As a result of Dean Jones’ confession, Professor
Smith filed a public records request in early 2016 to
obtain the salary study. App. 74.
Professor Smith was finally promoted to full
professor in August of 2016 because Dean Jones realized
that the University was in a catch-22 regarding the
logical inconsistencies of the promotion denials, and he

9

felt like it was his responsibility to finally be
“intellectually honest” about her scholarship that had
always been “excellent” as the term was applied to
previous successful promotion applicants since 2009,
when she first applied. Doc. 65-2 – Pgs 25-27, 44; Doc. 625 – Pg 188. Since August 2016, Professor Smith is a
tenured full professor at the law school. App. 76.
University Equal Opportunity Program Complaint
On December 15, 2016, Professor Smith filed a
complaint with FAMU’s Equal Opportunity Program
(EOP) to give FAMU the opportunity to correct the
salaries, based on gender disparities, as suggested in the
salary equity study. App. 7, 33, 74. In its 2017 EOP
Investigative Report, FAMU concluded – that “gender was
not the sole or primary factor for any disparities in the
August 2015 study.” App. 8, 74, 75. FAMU’s witness,
Carrie Gavin (“Ms. Gavin”), who authored the 2017 EOP
Investigative Report, but was not involved in applying the
criteria for the salary resets, testified as well that “gender
was not the sole or primary or the leading factor for any
disparities in the August 2015 study.” App. 75.
The Second Action (Smith II)
On July 30, 2018, Professor Smith, as a tenured
full professor, filed a second complaint. App. 8, 76. In
Professor Smith’s 2018 complaint (“second action” or
“Smith II”), she asserted that (1) after Smith I, her salary
was fully reset since Smith I, she was also promoted to
full professor and was challenging the pay of male full
professors; she also asserted that (2) the University
retaliated against her because when the University
increased faculty salaries, the University reduced the
amount that would have been consistent with the new
salary formula because Professor Smith was in litigation
with the University. App. 8, 9, 76. The University
defended by asserting a novel “outlier” theory, which was
not a consideration when resetting salaries, that the
salary adjustment formula was not applied to her because
it did not intend to match the salaries of the highest paid
male “outliers” and admittedly faux budget constraints.
App. 7, 9. Ultimately, the District Court granted the
University’s motion for summary judgment. App. 9, 77.

10

B. The District Court’s Erroneous Dismissal of
Professor Smith’s Case
Professor Smith brought a second equal pay action
against the respondents on July 30, 2018 in state court.
App. 3, 8, 21, 62. On August 29, 2018, the respondents
filed a notice of removal to the United States District
Court for the Northern District of Florida. App. 8, 62. On
September 7, 2018, the University filed a request for
judicial notice of the prior proceedings between the
parties. The District Court granted the request. App. 62.
The respondents filed a motion to dismiss on September
11, 2018, based on res judicata and collateral estoppel.
The District Court construed the motion as a motion to
dismiss or for summary judgment and denied the motion
on November 15, 2018, finding that Professor Smith’s
complaint was not precluded. App. 62.
On April 15, 2019, both parties filed motions for
summary judgment. App. 9, 63. On May 30, 2019, the
District Court heard the parties on their motions and
ruled in favor of the University. App. 9, 63. On June 2,
2019, the District Court issued its order without reference
to one salary equity adjustment case, denying Professor
Smith’s motion and granting the University’s motion,
finding that (1) Professor Smith was collaterally estopped
from bringing her gender discrimination claim because
the District Court said that Professor Smith’s salary was
simply “carried forward” from Smith I; and (2) although
the University’s failure to follow its own salary
adjustment formula was an “adverse employment action”
because it involved “a decision not to provide a raise or to
provide a raise of a lower amount than would otherwise
have been provided,” there was no retaliation. App. 20,
63. The clerk of court entered a judgment on June 2, 2019.
App. 20, 63.
Professor Smith filed a motion for reconsideration
on June 14, 2019. App. 63. The District Court denied the
motion on June 19, 2019. App. 29, 63. Professor Smith
timely filed her notice of appeal on July 1, 2019. App. 10,
63.

11

C. The Eleventh Circuit’s Erroneous Decision to
Affirm the District Court
On appeal, Professor Smith argued that the
District Court erroneously dismissed her Equal Pay and
Title VII claims based on collateral estoppel and
retaliation. App. 2, 48. Specifically, she argued that
employers cannot circumvent paying women equally to
men by classifying their “highest paid” men as “outliers”;
that the salary adjustment formula was not applied to her
salary because it was reset using unknown factors (the
Eleventh Circuit called them “other factors”) and thus
collateral estoppel does not apply; that consistent with
Dawes, in which there was no focus on eradicating gender
discrimination, the salary adjustment had to apply
equally to both sexes; and that reducing her salary
proposal from $138,000 to $125,000 was inconsistent with
University’s salary structure and was retaliatory. App. 9,
48-112.
The Eleventh Circuit found that:
1) “In August 2015, about two weeks after
judgment was entered on the verdict [in the
first trial], and unbeknownst to Smith at the
time, FAMU finalized an internal payinequity study which concluded that, on
average, female law professors were paid less
than male law professors at FAMU Law.”
App. 3.
2) “Not long after that, in early 2016, FAMU’s
law school applied a one-time ‘salary
adjustment’ to about one-third of the law
school faculty.” App. 3.
3) “[C]orrecting ‘gender disparity’ simply
‘wasn’t the project.’” App. 6.
4) “FAMU ultimately decided against raising
all tenured associate professor salaries closer
to Brown and instead chose to consider his
salary as an ‘outlier.’” App. 6.
5) “Smith’s salary was recommended to be
increased to $138,000. This figure was very
close to the actual salary of the highest paid
male associate professor, Jeffrey Brown, who

12

6)

7)

8)

9)

at the time was paid $138,330 and was not
subject to the one-time salary adjustment.”
App. 6.
“According to one of the deans in charge of
making the salary adjustment, changes were
based exclusively on ‘rank, tenure status,’
and ‘length of time.’” App. 4.
“Smith received $5,000 more than the other
tenured associate professors in part because
she had been tenured for a greater length of
time, and because of ‘other factors.’” App. 6.
“And although ‘[t]here are high end “outliers”
in each category’ of rank and tenure status,
the one-time salary adjustment ‘does not
attempt to make the level of compensation
paid to the outliers the norm.’” App. 7.
Citing this Court’s Burlington’’ “adverse
action” standard, the Eleventh Circuit found
that “Smith cannot show that she suffered
an adverse action as a result of that
protected activity. The record is devoid of
any evidence that she was entitled to receive
the same salary as Brown after the jury in
Smith I concluded the salary discrepancy
between them was not motivated by gender
discrimination.” App. 16-17.

Some of the Eleventh Circuit’s factual bases or
omissions are pure error as well as its interpretation of
the law. The only “outliers” are men. App. 70, 119, 123.
The only faculty whose salaries merited salaries
comparable to the outliers and whose salaries were
increased more than the standard $120,000 for associate
professors and $140,000 for full professors were women.
App. 24. Professor Smith’s issue was not that her salary
should be comparable to Professor Brown’s – she argued
she was entitled to equal application of the salary
adjustment formula, which coincidentally would nearlymatch her salary to Professor Brown’s. App. 79, 84, 85,
88. The Eleventh Circuit claims, “the adjustment applied
evenhandedly to both men and women,” while
simultaneously acknowledging that Professor Smith’s
salary adjustment included “other factors” and that the
University never intended to increase her or other

13

women’s salaries to the outliers, and thus, validating and
creating an “outlier” defense to limit the female faculty
salaries. App. 6, 13.
The Eleventh Circuit conflicts with several other
Circuits, which stated a general rule that salary
adjustments must be applied as created by the employer –
there is no “outlier” exception. Furthermore, federal equal
pay laws prohibit gender-based classifications of
employees to deprive employees of employment
opportunities or negatively impact status. The Eleventh
Circuit stated that the University’s pay-inequity study
showed that women are paid less than men at the law
school. App. 3. Therefore, creating an “outlier”
classification of “highest paid” employees will favor men.
App. 3, 33. This is prohibited under federal equal pay
laws.
Subsequently changing a former litigant’s salary in
a pay equity lawsuit using “other factors” makes it
impossible to determine whether the issue in the second
lawsuit is the identical issue that was already litigated in
the first lawsuit; collateral estoppel cannot apply,
according to New Hampshire v. Maine, 532 U.S. 742
(2001). Furthermore, there is no “outlier” exception in
salary equity adjustments as they have been applied by
other Circuits.
Lastly, the District Court found that the failure of
the University to apply its salary adjustment formula to
Professor Smith was “an adverse employment action,” but
the Eleventh Circuit held the opposite – that she was not
“entitled to receive the same salary as Brown after the
jury in Smith I” found no gender discrimination. But the
Eleventh Circuit changed the issue and answered a
different question. The issue is really whether failure of
the University to apply its own salary adjustment to
Professor Smith was denial of salary to which she was
entitled under the Equal Pay Act of 1963 and Title VII of
the Civil Rights Act of 1964, and as defined
under Burlington Northern & Santa Fe Railway Company
v. White, 548 U.S. 53 (2006). The answer is yes.
—————♦—————

14

REASONS FOR GRANTING PETITION
The Court should grant this petition for four
reasons. First, the decision below generates important
issues of first impression that flow from salary equity
adjustments involving discrimination and retaliation
under the Equal Pay Act of 1963 and Title VII of the
Civil Rights Act of 1964 combined with a dangerous and
gender-based unfair, novel “outlier” theory and an issue
blocked by collateral estoppel inconsistent with New
Hampshire v. Maine, 532 U.S. 742 (2001). Second, the
decision below causes a split with the Eighth, Seventh,
and Fourth Circuits, and its own Eleventh Circuit, that
have held that salary equity adjustment formulas must be
applied evenly to both sexes as created by the employer
that devised the formula unless trying to remedy past
gender discrimination. Third, the decision below conflicts
with – and substantially distorts – this Court’s decision
regarding retaliation in Burlington Northern & Santa Fe
Railway Company v. White, 548 U.S. 53 (2006) and
retaliation as defined under the Equal Pay Act of 1963
and Title VII of the Civil Rights Act of 1964. Fourth, the
decision below may have unintended wide-ranging
consequences in a time when many employers are
employing salary equity adjustments in a developing body
of law.
I.

The Decision Below Generates Issues of First
Impression, Creates a Circuit Split and is
Inconsistent with Federal Law.

The Eleventh Circuit’s approach is fundamentally
inconsistent with decisions and reasoning of the Eighth,
Seventh, and Fourth Circuits, and its own circuit. In
Dawes, the Eighth Circuit held:
We, of course, do not hold or imply that a
University must establish salary schedules
or even minimum salaries. We simply hold
that when a University establishes and
effectuates a formula for determining a
minimum salary schedule for one sex and
bases the formula on specific criteria such as

15

education, specialization, experience and
merit, it is a violation of the Equal Pay Act to
refuse to pay employees of the opposite sex
the minimum required under the formula.
522 F.2d at 384. Thus, in Dawes, the Eighth Circuit
created a general rule that where individual criteria
prompt a salary adjustment to certain plaintiffs, the
failure to apply the formula evenly across the genders
violates the Equal Pay Act. The Seventh Circuit in Ende
v. Bd. of Regents of Regency Universities, 757 F.2d 176
(7th Cir. 1985) recognized that general rule and carved
out an exception where the impetus of the adjustment is
to remedy past discrimination after it was confronted by
the office of Civil Rights “that there was reasonable cause
to believe [the university] had discriminated against
female faculty members with respect to promotion and
salary,” an employer need not apply the formula evenly
across the genders. Similar to our case, the Fourth
Circuit in Smith v. Virginia Commonwealth Univ., 84
F.3d 672 (4th Cir. 1996) involved a salary equity study
revealing gender imbalances prompting a voluntary
salary equity adjustment and evaluation of salary
increases against the requirements in United
Steelworkers v. Weber, 443 U.S. 193, 197 (1979), but
revealed that the university’s formula as created was
applied.
The case at bar is similar to Dawes, contrary to the
Eleventh Circuit’s attempt to distinguish it:

Dawes is inapposite because there the
university explicitly set out to overhaul its
salary system by making adjustments based
on sex. 522 F.2d at 381. Here, the evidence
clearly shows that sex played no part in
FAMU’s 2016 one-time salary adjustment, or
in any other change to faulty salaries since
the verdict in Smith I.
App. 13. That is not accurate. Dawes and Smith engaged
in a voluntary salary review to avoid loss of federal funds
based on future claims of sex discrimination, but as Ende
distinguished, in Dawes, like the case at bar, “the

16

previous existence of sex discrimination was not
persuasively established.” Ende at 181. Therefore, both
Dawes and the case at bar involved voluntary salary
equity adjustments not based on findings of sex
discrimination.
Dean Jones testified that the University’s goal was
to eradicate salary compression and salary inversion, and
“to make associate professors with tenure paid equally,”
but he “hoped that [the salary equity adjustment] would
address those who thought that gender discrimination
existed at the law school.” App. 4, 6, 68-70. In Dawes, the
issue was “whether the University unlawfully
discriminated against the male professional employees of
the College of Agriculture and Home Economics when it
sought to equalize salaries paid to the male and female
employees of those colleges.” Dawes at 381. Here, the
Eleventh Circuit admitted that “the internal pay-inequity
study … concluded that, on average, female law
professors were paid less than male law professors at
FAMU Law.” App. 3, 33-47. Thus, like Dawes, the
University was prudent in engaging in a voluntary salary
equity adjustment to eliminate potential claims of sex
discrimination and avoid losing federal funds.3 Therefore,
the general rule in Dawes that salary adjustments must
be applied across the board applies here. Had that been
done in Professor Smith’s case, then her salary would
have increased to $138,000 based on the University’s
formula of rank, tenure status and length of tenure.
However, the University did not apply the formula to
Professor Smith, and validated an afterthought “outlier”
defense that the University never intended to increase
Professor Smith’s salary (nor the salaries of the female
full professors) to the levels of the “outliers,” who were all
male. Under Dawes and affirmed by Ende and Smith,
Universities are revising their salary structures via one-time salary
equity adjustments to ensure compliance with federal and state laws
because it is “illegal for contractors and subcontractors doing business
with the federal government to discriminate in employment because
of race, color, religion, sex, sexual orientation, gender identity,
national origin, disability, or status as a protected veteran.” News
Release, U.S. Department of Labor, U.S. Department of Labor and
Nova Southeastern University Reach Agreement to Resolve
Compensation Disparities (July 10, 2020), available at
https://www.dol.gov/newsroom/releases/ofccp/ofccp20200710.
3

17

Professor Smith was entitled to the minimum salary
under the formula. In Dawes and here, the employers
were trying to equalize salaries.
The Eleventh Circuit’s own prior decision, involving
equalizing male and female faculty salaries, also is in
conflict. In Schwartz v. Fla. Bd. of Regents,
807 F.2d 901 (11th Cir. 1987), a male faculty settled his
first equal pay case challenging his base pay and
subsequently brought another to challenge an equity
adjustment; the Eleventh Circuit held that he was
“entitled to appropriate systems of salary adjustment that
are accorded to other employees.” Id. at 906. The court
further held that, “[f]or a fair comparison the same
general formula should have been applied to Schwartz as
to his comparators.” This is exactly what Professor Smith
has been arguing. The minimum required under the
formula (rank, tenure status and length of tenure) for
Professor Smith would be the $138,000 that the
University initially set for Professor Smith. It is clear that
the University did not apply the formula to Professor
Smith, did not pay her the minimum under the formula
because it created an “outlier” exception, and added
unknown “other factors” to calculate her revised salary.
While establishing this new body of law, the
Eleventh Circuit also established a novel, untested
“outlier” defense to circumvent pay parity. Had the
University applied its formula to Professor Smith as it
created it (before adding in the unknown “other factors”),
then Professor Smith’s salary would have increased an
additional $13,000 to $138,000. Almost irrationally, the
Eleventh Circuit then suggests that the mysterious extra
$5,000 that it tried to explain away when the University
decision-makers could not or would not themselves, was
gratuitous and generous, and she cannot be allowed to
complain. In other words, Professor Smith received $5,000
more than the other associate professors, rather than she
did not receive the amount she would have received had
the University followed its own salary equity adjustment
formula – an extra $13,000. The University defended that
it did not increase Professor Smith’s salary to $138,000,
which would have been comparable to Professor Brown’s
salary, because it did not intend to increase salaries to the

18

level of “outliers.” This is indefensible and conflicts with
the circuits requiring application of the University’s
created salary adjustment formula.
Next, the Eleventh Circuit applied collateral
estoppel (issue preclusion), which barred challenge of her
revised salary that she was not treated any worse than
prior male comparators, even though the court
acknowledged that unknown “other factors” were included
in the University’s increase of Professor Smith’s salary.
Collateral estoppel cannot possibly be used to bar a
subsequent lawsuit where unidentified controlling facts
where changed, and no witness could or would testify
how.
Issue preclusion, which applies “in the context of a
different claim,” “bars ‘successive litigation of an issue of
fact or law actually litigated and resolved in a valid court
determination essential to the prior judgment.’” Taylor v.
Sturgell, 553 U.S. 880, 892 (2008) (emphasis added)
(quoting New Hampshire v. Maine, 532 U.S. 742, 748-49
(2001)). This Court has always recognized if a “second
suit is upon a different cause of action, though between
the same parties, the judgment in the former action
operates as an estoppel only as to the point or question
actually litigated and determined, and not as to other
matters which might have been litigated and
determined.” Nesbit v. Indep. Dist. of Riverside, 144 U.S.
610, 618 (1892) (emphasis added); Cromwell v. County of
Sac, 94 U.S. 351 (1876); Baltimore S.S. Co. v. Phillips,
274 U.S. 316, 319 (1927); Bravo-Fernandez v. United
States, 137 S. Ct. 352, 358 (2016); B & B Hardware, Inc.
v. Hargis Indus., Inc., 575 U.S. 138, 148 (2015) (“The
Restatement explains that subject to certain well-known
exceptions, the general rule is that ‘[w]hen an issue of fact
or law is actually litigated and determined by a valid and
final judgment, and the determination is essential to the
judgment, the determination is conclusive in a subsequent
action between the parties, whether on the same or a
different claim.’ Restatement (Second) of Judgments, § 27,
p. 250 (1980)).” However, “changes in facts essential to a
judgment will render collateral estoppel inapplicable in a
subsequent action raising the same issues.” Montana v.
United States, 440 U.S. 147, 159 (1979). It is fundamental

19

that the principle of collateral estoppel “must be confined
to situations where the matter raised in the second suit is
identical in all respects with that decided in the first
proceeding and where the controlling facts remain
unchanged.” Comm’r of Internal Revenue v. Sunnen , 333
U.S. 591, 599-600 (1948). Because the “other factors”
could not be explained, there is no way to determine
whether the issues in the first and second lawsuits are
identical and were actually litigated in the first as
compared to the second lawsuit.
The Eleventh Circuit buys into the University’s
novel “outlier” theory that the University acknowledged
developed as an afterthought, post-application of the
salary equity formula to defend its failure to apply the
formula to her, and using collateral estoppel, the Eleventh
Circuit claims that because of Smith I, Professor Smith
was not entitled to the same salary as Professor Brown.
But, that was never her argument or the issue; Professor
Smith argues that she was entitled to fair application of
the University’s salary formula (rank, tenure status, and
length of time = $138,000) to her and that setting Brown
aside as an “outlier” did not insulate the University from
applying its formula to her as it did for the male
comparators. There is absolutely no precedent for that,
and it is inconsistent with other circuits. Because the
University assessed and reviewed all salaries, including
the outliers’ salaries, then failure to apply the formula to
her as it did for all others was gender-based or retaliatory
to not do so for her as well. The District Court and
Eleventh Circuit stated that Professor Smith was not
treated worse than any male after Smith I, but that is not
true. The males received the benefit of the salary
adjustment formula applied to them, and she did not.
Even Professor Brown, whose salary was not changed,
received the benefit of the formula, but under the formula,
his salary was already where it needed to be and thus,
there did not need to be an increase for his salary. Thus,
she cannot be collaterally barred from pursuing this issue
in a second lawsuit. That application of the University’s
salary equity adjustment formula would match her salary
to Professor Brown’s, who was her comparator in Smith I,
is coincidental and irrelevant, but not a bar to a second
lawsuit as to whether she was discriminated against in

20

the application of the salary equity adjustment after

Smith I.

The outlier theory bears no legislative support, nor
support from any case because it is nothing more than an
admission of gender discrimination. In Jepsen v. Fla. Bd.
of Regents, 754 F.2d 924, 926 (11th Cir. 1985), the
Eleventh Circuit found that the defendant-university’s
business necessity defense that it was focused on hiring
men because the defendant-university was moving from a
woman’s college to co-educational was almost an “outright
admission of sex discrimination.” The University cannot
circumvent federal equal pay laws by shielding “highest
paid” male faculty from faculty salary rationalization.
Women will never catch up to the pay disparities if
allowed, or be paid equally.
In addition, if the unknown “other factors” that the
University relied upon to revise her salary were not
identical to those litigated in Smith I, then she could not
possibly be barred under collateral estoppel; however,
there is no way to know because no witness knew what
the “other factors” were. Collateral estoppel surely cannot
be used to bar unknown factual changes since the first
lawsuit because there is no way to tell if these were
“actually litigated” in the first lawsuit to then be barred
in the second lawsuit. This is fundamentally inconsistent
with collateral estoppel jurisprudence. The Eleventh
Circuit glosses over that the University applied unknown
“other factors” to Professor Smith. Thus, Smith II is not
identical in all respects to Smith I and controlling facts
did not remain unchanged as required in this Court’s
precedent in New Hampshire and its progeny. The
Eleventh Circuit’s conclusion that Professor Smith was
collaterally estopped from litigating her pay equity
adjustment violates the well-established precedent of this
Court.
Lastly, under the Equal Pay Act and Title VII, an
employer can classify jobs if the classifications are based
on differences in work but cannot create artificial job
classifications to circumvent federal equal pay laws.
Schultz v. Wheaton Glass Co., 421 F.2d 259, 265-66 (3d
Cir. 1970); Thomas v. Sawyer, 678 F.2d 257, 285 n. 30

21

(D.C. Cir. 1982) (“[W]e do not foreclose the possibility that
in an appropriate case plaintiffs might establish that
unequal pay based on a job classification system violates
Title VII, even though the jobs classified under the system
are not equal for purposes of the Equal Pay
Act. See County of Washington v. Gunther, 452 U.S. 161
(1981). Moreover, the “gender-neutral classification” is not
“rooted in legitimate business-related differences in work
responsibilities and qualifications for the particular
positions at issue.” Aldrich v. Randolph Cent. School
Dist., 963 F.2d 520, 525 (2d Cir. 1992). Here, the
University created a “gender-neutral” job classification
based on “highest paid,” which, according to the
University’s pay-inequity study will always be a male
carveout because men are paid more than women at the
College of Law and will leave women with no or limited
comparators for pay parity challenges. App. 45-46. This
violates federal equal pay laws, has no basis in law and
conflicts with other circuits. Therefore, such a defense will
be a mockery to equal pay laws and women’s rights
because it stands to further the loopholes and
interpretations that prevent women from realizing the
protections of the EPA.4
II.

The Decision Below Cannot Be Reconciled with this
Court’s Precedent or Federal Law.

Closely related to the first two issues, the third
issue asks whether the University’s failure to apply its
salary formula to Professor Smith deprived her of salary
to which she was “entitled,” and thus, is an “adverse
employment action” under the retaliatory provisions of
the Equal Pay Act, 29 U.S.C. § 215(a)(3), and Title VII, 42
U.S.C. § 2000 e-3(a) as set forth in Burlington.
The Eleventh Circuit claims Professor Smith
advanced a “bald allegation that [the University] did not
apply its ‘new salary formula’ to her.” App. 15. The
Eleventh Circuit states that “[n]o other associate
H.R. Rep. No. 116-18, at 17 (2019)(“ Many women have been unable
to utilize the protections afforded under the EPA because loopholes,
court interpretations, and ineffective sanctions have made
enforcement extremely difficult.”).
4

22

professor . . . received a salary to match Brown’s” and the
University was “under no obligation to match his” as an
“outlier.” App. 15. According to the Eighth, Seventh,
Fourth and another Eleventh Circuit opinion, the
University was indeed under an obligation to apply its
salary formula to Professor Smith (which coincidentally
would have raised her salary near Brown’s), and again
she was the only then-associate professor whose rank,
tenure status and length of tenure paralleled Brown’s.
And thus, Professor Smith, as the District Court found,
was “entitled” to the salary she would have received had
the formula been applied to her.

Burlington holds that: “In our view, a plaintiff must
show that a reasonable employee would have found the
challenged action materially adverse, “which in this
context means it well might have ‘dissuaded a reasonable
worker from making or supporting a charge of
discrimination.’” 548 U.S. at 59. The Eleventh Circuit
cites Burlington to determine that Professor Smith “was
not entitled to receive the same salary as Brown after the
jury in Smith I concluded that the salary discrepancy
between them was not motivated by gender
discrimination.” App. 17. But that was not what Professor
Smith argued. She argued that the University created its
own one-time salary equity formula and applied it to
every faculty member, but her, resulting in a $13,000 gap.
It was only coincidental that the proper application of the
University’s own salary formula would have put her nearequal to Professor Brown. But she was indeed treated
worse than male faculty who received the benefit of the
formula. The Eleventh Circuit acknowledges that
deprivation of pay to which an employee is entitled is
retaliation but finds that Professor Smith was not entitled
to this additional $13,000. This was contrary to what the
District Court found. Professor Smith argues that she was
entitled to have the University’s self-created salary
adjustment formula applied to her like the other faculty,
which would have placed her salary near-equal to
Professor Brown. By mis-framing the issue, the Eleventh
Circuit avoids the real issue. Cleary, under Burlington’s
definition, the University retaliated against Professor
Smith when it did not apply the salary formula to her as
it did for her colleagues, resulting in a significant pay gap.

23

This is salary to which she was entitled and a materially
adverse action.
As shown above, the Eleventh Circuit’s opinion is
inconsistent with its own circuit and three other circuits.
Eleventh Circuit precedent holds that an employee is
“entitled to [seek] appropriate systems of salary
adjustment that are accorded to other employees” under
Title VII and the EPA, despite having previous pay
disparities. See Schwartz, 807 F.2d at 906. The Eighth
Circuit holds that for pay equity cases, a plaintiff
establishes her prima facie case under the EPA if her
employer “refuse[s] to pay employees . . . the minimum
required under the formula.” See Dawes, 522 F.2d at 384.
And the Seventh and Fourth follow.
Given the conflict among the federal circuits, the
inconsistency with this Court’s precedent, and the
increased use of salary equity adjustments, it is axiomatic
that challenges to these adjustments will lead to
inconsistent outcomes and unfair loopholes. This must be
reviewed and reversed.
III.

Failure to Review this Case will Have FarReaching Consequences and the Decision Below Is
Fundamentally Unfair to Women.

Collateral estoppel is a discretionary doctrine, not
an inexorable command, that should not be employed
here. There is too much at stake in negatively impacting
women’s salaries, and too much evidence that gender is
likely being used to set salaries – the University’s own
documents and witnesses indicated that. The courts below
attempt to explain away what the University decisionmakers were unable to articulate – how Professor Smith’s
revised salary was actually set.
In addition, Professor Smith is not just saying that
the University failed to correct its past discrimination,
which is true, and its own documents reveal, but also that
there is new, different or additional discrimination in the
application and implementation of the salary equity
adjustment. See Dawes, Ende, Smith and Schwartz. In
assessing the University’s substantial reasons, the

24

District Court apparently found a prima facie case and
evaluated the University’s justifications for the salary
disparity – this is not a dismissal under collateral
estoppel.
More egregiously, the University creates a malefavoring “outlier” theory or job classification that is unfair
to women. The University’s witnesses testified that there
were no employees classified as “outliers” initially in the
salary equity adjustment process – the “outlier” theory
developed later to justify failure to increase Professor
Smith’s salary to $138,000, thus the “outlier” defense was
an afterthought – no one knows why the University failed
to apply its salary adjustment formula to her. And Dean
Jones testified that the University really did not have
“budget constraints” and could find the money. App. 70.
The Supreme Court has found that “where
important human values are at stake, even a slight
change of circumstances may afford a sufficient basis for
concluding that a second action may be brought.” Whole
Woman's Health v. Hellerstedt, 136 S. Ct. 2292, 2305
(2016), as revised (June 27, 2016) (citing Restatement §
24, comment f). See also Jaffree v. Wallace, 837 F.2d
1461, 1469 (11th Cir. 1988). A discretionary doctrine, like
collateral estoppel, should not be used to allow such
illegalities to remain – this is fundamentally unfair and
egregious. See also Restatement (Second) of Judgments, §
28(2)(b))(stating that relitigation of the issue in a
subsequent action between the parties is not precluded
where “a new determination is warranted in order to
avoid inequitable administration of the laws.”). This
appears to be such a human issue that the court would
decline to use collateral estoppel.
A judge can decide if a woman deserves equal pay –
and his or her decision does not just impact one woman. It
can become the blueprint to impact the salaries of all
women, their daughters, and their granddaughters. This
is why the application of collateral estoppel to issues of
great importance is not favored. But more importantly,
the crux of Smith I was litigating the criteria to set
salaries. Thus, the unknown or unidentified “other
factors” that were changed in the salary reset completely

25

take this case out of the realm of collateral estoppel.
Collateral estoppel should not be used to deny equal pay
to women or create an “outlier theory” that allows
employers to label “highest paid,” historically men, as
“outliers” and make them untouchable for discrimination
challenges. This is unconscionable and will be a disaster
to equal pay laws. It literally limits or denies the male
comparators for women.
Given the resurgence of equity adjustments, there
is a dire need for this Court to use this case as a vehicle to
close judicial loopholes and ensure the protections of the
Equal Pay Act are finally realized. This is an ideal case
because of the numerous issues it has involving salary
equity adjustments. If the lower court’s decision is
allowed to remain, employers will have a license to
discriminate in their allocation of salary equity
adjustments. This impinges the very purpose and intent
of the federal equal pay statutes. Equal pay is one of the
most popular topics in America. This case has the
potential for far-reaching negative consequences for
women if not reviewed.
Finally, in an unpublished opinion, the Eleventh
Circuit decided several significant interrelated issues
regarding salary/pay equity adjustments that will likely
become law. Justice Clarence Thomas and other justices
have asserted that the federal circuits refuse to publish
opinions to avoid binding law. Plumley v. Austin, 135 S.
Ct. 828, 831 (2015) (Thomas, J., dissenting) (explaining
that the Fourth Circuit did not publish its opinion to
avoid creating binding law, but that the unpublished
opinion “preserves its ability to change course in the
future”). However, unpublished opinions become “secret
law” that was never appropriately scrutinized because the
secret law initially went undetected and unchallenged in
unpublished opinions only to later become law in a
published decision. County of Los Angeles v. Kling, 474
U.S. 936, n. 1 (1986) (Marshall, J., dissenting) (referring
to the practice of issuing unpublished opinions and no
citation rules as "secret law").5
Martha J. Dragich, Will the Federal Courts of Appeals Perish If
They Publish? Or Does the Declining Use of Opinions to Explain and
Justify Judicial Decisions Pose a Greater Threat? 44 AM. U. L. REV.
5

26

Here, the Eleventh Circuit split with other Circuits
on whether an employer’s salary adjustment formula
must be applied as created; validated a novel “outlier”
theory shielding highest paid male salaries from salary
rationalization; allowed collateral estoppel to bar a
subsequent lawsuit under federal equal pay laws when
the revised salary was changed in significant aspects
based on unknown “other factors” that made the lawsuits
not identical; and determined that the employer’s failure
to follow its own salary adjustment formula that deprived
the employee of a higher salary was not an “adverse
employment action” under federal equal pay laws and

Burlington.

This Court has not yet opined on these aspects of
salary equity adjustments, and before becoming
unchallenged precedent from an unpublished opinion, the
Eleventh Circuit’s opinion must be reviewed and reversed.
The unpublished decision below is the epitome of secret
law that will serve as a formula for establishing harmful
precedent. If this petition is not granted that very
outcome is inevitable. The fate of women hangs in the
balance.
—————♦—————

757, 788 (1995) (providing examples to show "the seriousness of the
courts of appeals' creation of a body of 'secret law' by failing to publish
opinions in important cases").

27

CONCLUSION
The petition for certiorari should be granted.
Respectfully submitted,
Jennifer M. Smith

Counsel of Record

Law Office of Jennifer Smith
13506 Summerport Village
Pkwy., Suite 108
Windermere, FL 34786
321-200-4946 Phone
407-442-3023 Fax
jensmithesq@aol.com

Stephen M. Smith
Stephen M. Smith
Associates, LLC
1425 N. Broad Street
Suite 201
New Orleans, LA 70119
504-947-1400 Phone
504-947-1100 Fax
stevesmithlaw@aol.com

Counsel for Petitioner
Date: March 3, 2021

